                                  FOLLOW-UP




 BUREAU OF RECLAMATION’S
 MANAGEMENT OF EXCLUSIVE
 USE RECREATION AREAS




Report No.: WR-FL-BOR-0007-2010   February 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum                                                                                 February 24, 2011

To:            Richard Rizzi
               Manager, Land Resour(es2i~ision                             ~

From:          Michael P. Colombo
               Regional Manager
                                                   'J  /)~
                                                  ttJ:::: /
                                                            &£..." <&J
Subject:       Follow-up - Bureau of Reclamation' s Management of Exclusive Use
               Recreation Areas
               Report No. WR-FL-BOR-0007-2010

        In December 2008, the Federal government issued Title 43 Code of Federal Regulations
Part 429, "Use of Bureau of Reclamation Land, Facilities, and Waterbodies." Part 429 allows for
the conditional continuation of residential exclusive use that currently exists on recreation lands
administered by the U.S. Department of the Interior's Bureau of Reclamation (USBR).
Conditional continuation depends on whether the residential exclusive use activity within a given
recreation area successfully fulfills two requirements: at least once every 20 years the activity is
determined to be compatible with public need and project purposes, and at least once every 5
years the activity passes compliance reviews specific to environmental, health and safety, and
financial elements.

        Since the mid-1990s, the U.S. Department of the Interior's Office of Inspector General
(OIG) has reviewed USBR's management of residential exclusive use activities and identified
issues regarding both the restriction of the public's access to recreation lands and the resulting
presence of environmental and health and safety risks. In May 1995, our audit "Recreation
Management Activities at Selected Sites, Bureau of Reclamation" (Report No. 95-1-870) found
that USBR had limited success in its attempts to eliminate or reduce residential exclusive use as
it had yet to establish definitive guidelines for determining what constituted public need. We
recommended that USBR develop guidelines that could be used when determining whether
continued residential exclusive use was justified.

        The objective of this follow-up to our May 1995 audit was to identify actions taken by
USBR in response to our recommendation. We looked to identify whether those actions reduced
the impact of residential exclusive use occurring on USBR land and whether USBR was
providing sufficient oversight of residential exclusive use activities. We identified that 275
cabins and 42 mobile homes currently exist on USBR-managed recreation areas. (See
Attachment 3 for a listing of this residential exclusive use.) USBR was unable to provide data on
those recreation areas managed by its non-Federal partners as this information is not reported. In
addition, USBR is both inconsistent in conducting compatibility determinations and unable to
meet the regulatory controls established in Part 429 for those compatibility determinations. This



                         Office of Audits. Inspections. and Evaluations I Sacramento. CA
is due to a lack of guidance as to what constitutes compliant residential exclusive use
authorizations.

        This report contains four recommendations, which, if implemented, will serve to help
USBR fully comply with those oversight responsibilities required by Part 429 and strike a
balance between the private, exclusive use of public recreation lands and the public need and
benefit for the use of these lands.

       Please provide us with your written response to this report, number WR-FL-BOR-0007-
2010, within 30 days. The response should provide information on actions taken or planned to
address the recommendations, as well as target dates and titles of the officials responsible for
implementation. Please address your response to:

      Mr. Michael P. Colombo, Regional Manager
      Western Region for Audits, Inspections, and Evaluations
      U.S. Department of the Interior
      Office of Inspector General
      2800 Cottage Way, Ste. E-2712
      Sacramento, CA 95825

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 916-978-5653.

Attachments (4)




                                                 2
                                                                                      Attachment 1


Background

         The Bureau of Reclamation’s (USBR) 308 recreation areas have an estimated annual
visitation rate of 90 million visitors. Among the U.S. Department of the Interior’s (Interior) other
land management agencies, USBR is responsible for administering and interpreting the natural
and recreational resources of its public land. While USBR does not have a fully mandated
recreation authority, the Reclamation Recreation Management Act of 1992 (P.L. 102-575)
charges USBR to ensure the protection, comfort, and well-being of the public. This includes
public safety, with respect to the use of USBR lands, and the protection of resources.

        Starting in 1995, Interior’s Office of Inspector General (OIG) reviewed USBR’s
management of residential exclusive use activities and identified issues related to both the
public’s restricted access to recreation lands and the presence of environmental and health and
safety risks.

        The establishment of private exclusive-use cabins began around the 1950s with USBR
approving or simply acquiescing to the issuance of permits by State and local managing
agencies. While USBR’s actions intended to control development, the permitting system was not
well managed. By the mid-1960s private exclusive use dwellings on USBR lands had become
controversial, and the Secretary of the Interior proposed phasing out such uses over the next 20
years. The regulations subsequently adopted in 1967 at 43 C.F.R. Part 21, “Occupancy of Cabin
Sites on Public Conservation and Recreation Areas,” were intended to facilitate this phase-out
process.

        As identified within our report, “Recreation Management Activities at Selected Sites,
Bureau of Reclamation” (Report No. 95-I-870), Part 21 was not effective at phasing out
exclusive use because the provisions for removal were conditioned on USBR first making a
determination that there was a “public need” for use of sites dedicated to exclusive use. As no
guidance was provided for determining public need, USBR’s efforts to eliminate private use
ultimately failed. Therefore, in 1995 we recommended that USBR develop definitive guidelines
for determining what constituted public need and use these guidelines in reviewing exclusive use
authorizations to determine whether continued private use was justified.

Response to OIG Recommendation and Current Extent of Residential Exclusive Use

        In response to those recommendations made within our 1995 audit, USBR adopted
stronger policy and directives (directives) beginning in 1998 that prohibit new private exclusive
uses and clearly intend to eliminate existing private exclusive use after the expiration of current
obligations. For example, within USBR’s Land Use Authorizations (LND 08-01) directive, upon
expiration of an authorization, private exclusive uses are to be eliminated unless a formal
planning process identifies significant public need and benefit for the use, and the land is not
needed for other public or project purposes. This directive identifies 13 questions to be
considered within the formal public need planning process.

      In 2008, USBR began implementing regulations codified at 43 C.F.R. Part 429, “Use of
Bureau of Reclamation Land, Facilities, and Waterbodies,” which authorize the continuance of


                                                                                                   1
all authorized existing private recreational or residential exclusive uses so long as it is deemed
“compatible with public needs and authorized project purposes.” (43 C.F.R. § 429.32). Per Part
429, while no new private exclusive use will be authorized, USBR must review existing
authorizations for this compatibility determination at least once every 20 years. USBR must also
conduct compliance reviews specific to environmental requirements, public health and safety
requirements, and financial obligations to USBR every 5 years or within 6 months of expiration
of a use authorization. USBR may terminate private exclusive use authorizations that fail to
successfully meet these reviews.

        In June 2010, USBR provided a list of six USBR-managed recreation areas where
residential exclusive use activity exists. These recreation areas have 42 mobile homes and 275
cabins and are located within two regions: the Great Plains and the Pacific Northwest.
Attachment 3 contains a listing of residential exclusive use identified by USBR as occurring on
recreation areas it directly manages. USBR was unable to provide data on those recreation areas
managed by its non-Federal partners as this information is not reported. The decrease in reported
residential exclusive use activity from the time of our 1995 audit is primarily due to the transfer
of management of the Heart Butte Reservoir (Lake Tschida) from USBR to a non-Federal
partner and the legislatively-mandated transfer by sale of USBR land located at the Canyon Ferry
Reservoir to the private permit holders.

        The sole example of significant removal of residential exclusive use activity by USBR
occurred at the Mid Pacific Region’s Lake Berryessa. In a June 2006 Federal record of decision
resulting from an extensive public process, Lake Berryessa began removing all of its nearly
1,500 mobile homes from the recreation area. To remove the mobile homes, USBR used nearly
$7 million in American Recovery and Reinvestment Act of 2009 (ARRA) funds to demolish and
cleanup abandoned property. Remediation of hazardous materials resulting from these sites was
initiated with additional removal and site clean-up efforts funded through ARRA. In some
instances, monitoring, additional testing, and clean-up may be required for years to come.

Compatibility Determinations

        While the continued existing authorized residential exclusive use depends on USBR’s
compatibility determination, USBR is not consistent or transparent in its completion of these
determinations. Only half of the USBR officials interviewed indicated that they had conducted a
formal compatibility determination for their recreation areas. The requirement for a formal
compatibility determination was identified by USBR’s Land Use Authorizations (LND 08-01)
directive issued in January 2002. USBR’s Land Resources Division (LRD), which develops
policy and directives specific to USBR land and its uses, acknowledged that the degree of effort
in completing the compatibility determinations was not consistent based on the scope of the
project need. Thus, Part 429 requires that the public be involved through mechanisms such as
public meetings to comment on resource management plan development, recreation demand
analysis studies, and project feasibility studies.




                                                                                                 2
Compliance Reviews

        Part 429 establishes a requirement for compliance reviews specific to environmental,
health and safety, and financial obligation for authorizations of exclusive use. Both the
regulation and USBR directives, however, are silent on what constitutes compliant residential
exclusive use authorizations. For example, USBR’s Recreation Program Management (LND 01-
03) directive issued in January 2009 simply refers back to Part 429, which is also silent on
activities that are to be involved when describing how USBR offices will conduct compliance
reviews According to USBR’s LRD, the directives do not contain an established review and
evaluation format so as to allow each office to tailor individual formats to the specific issues and
concerns of the evaluation areas. To allow transparency and consistency nationwide within the
determination process, however, there should be a standard set of activities for all offices to
follow. USBR has offered other guidance that may be adapted such as its “Concessions
Management Guidelines,” which addresses the concessions review program. This guidance
includes evaluation standards and recommended evaluation forms that, once adapted, may be
used to assist field personnel in review and evaluation of residential exclusive use activity.
Consistent guidance is also necessary as USBR does not have the expertise on staff in all offices
to conduct inspections. Some offices have had to hire contractors or request assistance of local
government entities.

        Compliance reviews on financial obligations also need specific guidance. Simply
identifying that an authorization holder is current in their lease payment is not sufficient in terms
of USBR oversight. Factors such as the fee rate applied and the presence of authorization
instruments are also critical in determining whether authorization holders are in fact current in
their obligations to USBR. In some cases, when recreation areas are managed by a non-Federal
partner, lack of USBR oversight may cause fee rates to not be current. For example, there were
two specific instances in which USBR increased fee rates after management of the recreation
area was returned from a non-Federal partner. 1 Rates were increased upon return because they
were not based on current fair market value. 2 These non-Federal managing partners applying
outdated fee rates in these two instances denied the public over $500,000 in compensation
annually for the restricted use of their lands. In another example, an operator at one of Canyon
Ferry Reservoir’s concessions acknowledged that it functioned without formal agreements
between the operator and the tenants of its 31 mobile homes. Thus, while the operator sends
annual bylaws, fee charges, and bills for health and safety inspections to tenants, there is no
documented consent by the tenants.

Other Matters

        In May 2010, USBR brought its Recreation Use Data Report (RUDR) system online to
track recreation data for all USBR managed Federal lands, including those lands managed by

1
  Management of Canyon Ferry Reservoir was returned to USBR in 1993; management of Conconully Lake and Reservoir was
returned to USBR in 2002.
2
  Rates are to be based on fair market value as a means for private individuals to provide the public with compensation for the
restricted use of federal lands. The federal government’s use of fair market value in calculating the value of public lands is used
as the courts early adopted, and have retained, the concept of market value as the measure of just compensation to fulfill the
United States Constitution’s Fifth Amendment requirement in the case of a Taking. Per Part 429, this value may be adjusted as
deemed appropriate by USBR to reflect current conditions.

                                                                                                                                      3
USBR’s non-Federal partners and concessionaires. According to Reclamation, while the RUDR
system is meant to provide a comprehensive look at recreation data, the system also is meant to
provide Reclamation with an identified universe of private exclusive use activities. As this is the
first year of system implementation, the LRD recognizes that they will need to update and adapt
the system and forms as time progresses to accommodate any necessary changes.

        While USBR does not intend RUDR to be a financial system, the system does identify
the most commonly charged fees for entrance, use, visitor center, or use authorizations. USBR
instructs its managing partners that they may choose to identify other fees not addressed by these
previous categories. Thus, whether the fees specific to and paid by residential exclusive use sites
are identified depends upon who completes the form and whether they choose to identify the fee.
Given Part 429’s compliance review focus on financial obligations, such information may be
beneficial when looking at the universe of residential exclusive use activities occurring on USBR
land.

Recommendations

   To ensure that USBR is able to fully meet those management controls required by Part 429,
we recommend that USBR:

   1. Ensure that compatibility determinations are conducted and documented in a consistent
      and transparent manner, identifying the extent of public involvement and those actions
      taken by USBR in response to this input.

   2. Clearly identify a minimum set of standard features to be inspected for those compliance
      reviews required by Part 429, as well as how findings should be documented so as to
      ensure deficiencies are appropriately addressed and corrected.

   3. Monitor the RUDR system for significant variations in specific recreation features to
      identify whether a more frequent compatibility determination is required in compliance
      with provisions of the existing regulations. Such features may include annual visitation
      rates and inventory of recreation facilities, designated areas, and opportunities.

   4. Complete a review on a cyclical basis, such as at least once every 3 years, of the RUDR
      form and system to identify where improvements are needed (e.g., identifying use
      authorization fees and their basis assessed for residential exclusive use sites).




                                                                                                  4
                                                                                      Attachment 2


Scope and Methodology

Scope

The follow-up focused on residential exclusive use activity existing on recreation areas directly
managed by USBR. Although we initially attempted to identify all such activity occurring on
USBR recreation areas, USBR was unable to provide data on those recreation areas managed by
its non-Federal partners as this information is not historically reported. We believe that the work
performed provides a reasonable basis for our conclusions and recommendations.

Methodology

We conducted our review from June 2010 through December 2010. We performed our follow-up
in accordance with the President’s Council on Integrity and Efficiency “Quality Standards for
Inspections.” Accordingly, we included such tests of records and other procedures that were
considered necessary under the circumstances. To accomplish our objective, we conducted the
following activities:

   •    Reviewed applicable legislation and regulation specific to USBR’s roles and
        responsibilities relating to recreation and exclusive use activities, as well as USBR
        policy, standards, and directives. The Department of the Interior’s Strategic Plan (2007-
        2012) and Financial Report (fiscal year 2009) were likewise reviewed for similar reasons.
   •    Determined the universe of residential exclusive use activity occurring on USBR-directly
        managed recreation areas. USBR was unable to provide data on those recreation areas
        managed by its non-Federal partners as this information is not historically reported.
   •    Interviewed USBR officials from the Land Resources Division, which develops policy
        and directives specific to USBR land and its uses, to identify applicable policy. Field
        officials and concessionaire operators from various recreation areas were also
        interviewed to determine how policy was implemented. (See Attachment 4 for offices
        visited or contacted.)
   •    Reviewed forms of public input such as the Federal Register and Records of Decision.
   •    Reviewed a sample of environmental and health and safety compliance inspections.




                                                                                                  1
                                                                              Attachment 3


Residential Exclusive Use Identified by the Bureau of Reclamation


                         Residential Exclusive Use Identified by USBR:
                                 Comparison of 1995 to 2010
                                         1995                  2010
                   Recreation                                               Authorization
  Region                                      Mobile               Mobile
                     Area         Cabins                 Cabins              Instrument
                                              Homes               Homes
                   Conconully
   Pacific                          100          0          81       0         License
                      Lake
   North-
                    Owyhee
    west                             72          0          61       0          Lease
                    Reservoir
                     Fresno
                                     24          0          24       0         Permit
                    Reservoir
                  Canyon Ferry               265         43     0    42      Concession
   Great
   Plains             Nelson
                                             108         0     106    0        Permit
                     Reservoir
                     Seminoe
                                               0         0      3     0        Permit
                     Reservoir
      Subtotal (as initially reported by USBR)                 275   42
   Great
                  Lake Tschida*              112        117    110   114       Permit
   Plains
                       Lake
Mid Pacific                                    0        1496    0     0      Concession
                    Berryessa*
         Grand Total                         681        1656   385   156
*Not identified within USBR’s initial 2010 reporting.




                                                                                          1
                                                                          Attachment 4


Offices Contacted or Visited


                                                    Office Location of
                Office or Recreation Area
                                                    Person Contacted
               Conconully Lake and Reservoir,
                                                    Ephrata, Washington
                 Pacific Northwest Region
     Owyhee Reservoir, Pacific Northwest Region       Yuma, Arizona

    Canyon Ferry Reservoir, Great Plains Region*     Helena, Montana

             Lake Tschida, Great Plains Region     Bismark, North Dakota

                  Lake Berryessa, Mid Pacific*       Folsom, California

                    Land Resources Division          Denver, Colorado
* = Physical site visit.




                                                                                    1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
